                                                           IG-00-046




AUDIT
                                     NASA SETTLEMENT OF
REPORT                     DCAA’S INCURRED COST AUDITS AT GODDARD
                                     SPACE FLIGHT CENTER

                                      September 18, 2000




                           OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
Additional Copies
To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

      Assistant Inspector General for Auditing
      Code W
      NASA Headquarters
      Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800) 424-
9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write
to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.


Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

ACO             Administrative Contracting Officer
DCAA            Defense Contract Audit Agency
DoD             Department of Defense
FAR             Federal Acquisition Regulation
FY              Fiscal Year
GAO             General Accounting Office
NPG             NASA Procedures and Guidelines
OIG             Office of Inspector General
OMB             Office of Management and Budget
W                                                                                     September 18, 2000


TO:                A/Administrator

FROM:              W/Inspector General

SUBJECT:           INFORMATION: NASA Settlement of DCAA's
                   Incurred Cost Audits at Goddard Space Flight Center
                   Report Number IG-00-046


The NASA Office of Inspector General has completed an audit of NASA Settlement of
Defense Contract Audit Agency’s (DCAA’s) Incurred Cost Audits at Goddard Space Flight
Center (Goddard). NASA policies and procedures for resolution and disposition of contract
audit findings and recommendations comply with Office of Management and Budget (OMB)
Circular A-50 requirements.1 However, the follow-up and settlement of DCAA’s incurred cost
audits at Goddard can be improved. Specifically, we found the Goddard contract audit follow-
up system did not include complete records of actions taken on findings and recommendations
for 14 of 16 sampled DCAA audit reports for which the resolution and disposition authority had
been delegated to the Department of Defense (DoD). As a result, Goddard procurement
personnel may not be able to ensure that audit findings and recommendations were resolved in a
timely manner and that the resolutions were in NASA’s best interest.


In addition, Goddard did not meet Federal Acquisition Regulation (FAR) guidelines on closing
out 10 physically completed contracts. The average time awaiting closeout for the 10 contracts
was about 55 months. Delays in contract closeout can result in excess unliquidated obligations
that could be used for other NASA programs. In addition, the delays can directly affect the
success of Government negotiations and result in increased workload for contractors and
contracting officers.




1
  OMB Circular A-50, “Audit Followup,” requires all agencies, including NASA, to establish audit follow-up systems
“to assure the prompt and proper resolution and implementation of audit recommendations.”
                                                                                                                         2

Background

NASA uses the services of other Federal agencies to perform audits of contractors, educational
institutions, and nonprofit organizations receiving NASA grants and contract
awards. In fiscal years (FY’s) 1997 and 1998, NASA spent $32 million ($16.5 million and
$15.6 million, respectively) on contract audit services provided by the DCAA. Of the $32
million, NASA paid about $6 million for audit services performed for NASA contracts at
Goddard.

To improve the effectiveness and efficiency of Government operations, the OMB issued
Circular A-50, which addresses establishing audit follow-up systems. Resolution should occur
within a maximum of 6 months after issuance of a final report, and corrective action should
proceed as rapidly as possible. The Circular requires that the follow-up systems provide for a
complete record of action taken on both monetary and nonmonetary findings and
recommendations. Furthermore, the Circular establishes 11 standards that follow-up systems
must meet, including assuring that “performance appraisals of appropriate officials reflect
effectiveness in resolving and implementing audit recommendations.”

As part of its oversight duties, the NASA Headquarters Office of Procurement conducts
surveys at NASA installations that address, in part, contract audit follow-up of reportable
contract audit (RCA) reports.2

We have completed audits of NASA’s Contract Audit Follow-up System at Marshall Space
Flight Center (Marshall) 3 and Johnson Space Center (Johnson).4 NASA management
concurred with all the recommendations in the final audit reports and is taking corrective actions.
Because of the prior audits, we limited our review at Goddard to the NASA follow-up process
for DCAA incurred cost audits.


Recommendations

           We recommended that the Associate Administrator for Procurement issue guidance to
         contracting officers on participating in final indirect cost negotiations for those contractors

2
  DCAA Contract Audit Manual 7640.1, Section 15-603.2, “Reporting Requirements,” defines reportable contract
audit reports as: (1) reports containing findings and recommendations covering estimating system surveys, accounting
and related internal control system reviews, defective pricing reviews and cost accounting standards matter; (2) reports
covering operations audits, incurred costs, settlement of final indirect cost rates, final pricing submissions, termination
settlement proposals and claims, if reported costs or rates questioned or unsupported/qualified equal $100,000 or more;
and (3) reports on audit-determined final indirect cost rates when the auditor cannot reach an agreement with the
contractor.
3
  NASA OIG issued final audit report number IG-00-010, “NASA Contract Audit Follow-up System at Marshall
Space Flight Center,” on March 6, 2000.
4
  NASA OIG issued final audit report number IG-00-032, “NASA Contract Audit Follow-up System at Johnson Space
Center,” on May 19, 2000.
                                                                                              3

for which NASA has a major financial interest as required by NASA FAR Supplement
1842.705. In addition, the Director, Goddard Space Flight Center, should monitor the
effectiveness of the actions planned and taken to improve Goddard’s efforts to close physically
completed fixed-price contracts and contracts needing settlement of indirect cost rates within
the time frames specified by the FAR.

During prior audits of the NASA Contract Audit Follow-up System at Marshall and Johnson,
we recommended that NASA management take corrective actions regarding (1) communication
with DoD administrative contracting officers who have been delegated activities on NASA
contracts and (2) resolution of contract audit report recommendations within 6 months of
issuance of the final audit report. Because management concurred with the recommended
actions, we made no further recommendations on these issues in this report.

Management Response

Management generally concurred with the recommendations. NASA management will clarify
NASA FAR Supplement 1842.705 for contracting officers on participating in final indirect cost
rate negotiations for which NASA has a major financial interest and will discuss with DoD its
role in this process. The Director, Goddard Space Flight Center, has taken corrective actions
to reduce and better manage overaged unliquidated obligations and contract closeouts.

The actions planned or taken by management are responsive to the recommendations. Details
on the status of the recommendation are in the recommendation section of the report.




[original signed by]
Roberta L. Gross


Enclosure
Final Report on Audit of NASA Settlement of DCAA's Incurred Cost Audits at
Goddard Space Flight Center
         FINAL REPORT
 AUDIT OF NASA SETTLEMENT OF
DCAA'S INCURRED COST AUDITS AT
GODDARD SPACE FLIGHT CENTER
                                                                         September 18, 2000
W


TO:             H/Associate Administrator for Procurement
                100/Director, Goddard Space Flight Center

FROM:           W/Assistant Inspector General for Auditing

SUBJECT:        Final Report on Audit of NASA Settlement of DCAA's
                Incurred Cost Audits at Goddard Space Flight Center
                Assignment Number A0002900
                Report Number IG-00-046


The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. Management comments were responsive to the recommended corrective
actions. Management's actions are sufficient to close Recommendation 2 for reporting
purposes. Recommendation 1 will remain open for reporting purposes until corrective actions
are completed. Please notify us when actions have been completed on the recommendation,
including the extent of testing performed to ensure corrective actions are effective.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program
Director, Procurement Audits, at (818) 354-3360; Mr. Tony A. Lawson, Audit Program
Manager, at (301) 286-6524; or Ms. Lydia C. Lin, Auditor-in-Charge, at (281) 483-0741.
We appreciate the courtesies extended to the audit staff. The final report distribution is in
Appendix G.


[original signed by]
Russell A. Rau

Enclosure
                                                     2

cc:
AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Acting Director, Management Assessment Division
Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations, 2

     Finding A. Adequacy of Monitoring Incurred Cost Audits When
                NASA Delegated Resolution Authority, 2

     Finding B. Timeliness in Closing Contracts after Physical
                Completion, 6


Appendix A - Objectives, Scope, and Methodology, 11

Appendix B – Incurred Cost Audits, 13

Appendix C – Audit Reports for Which NASA Delegated Resolution
            and Disposition Authority, 14

Appendix D – Summary of Prior Coverage, 15

Appendix E – Contracts Physically Completed and in Closeout, 18

Appendix F – Management's Response, 19

Appendix G – Report Distribution, 25
                               NASA Office of Inspector General

IG-00-046
 A0002900                                                                                   September 18, 2000

               NASA Settlement of DCAA's Incurred Cost Audits at
                         Goddard Space Flight Center

                                           Executive Summary

Background. NASA uses the services of other Federal agencies to perform audits of
contractors, educational institutions, and nonprofit organizations receiving NASA grants and
contract awards. In FY’s 1997 and 1998, NASA spent $32 million ($16.5 million and $15.6
million, respectively) on contract audit services provided by the DCAA. Of the $32 million,
NASA paid about $6 million for audit services performed for NASA contracts at Goddard.

To improve the effectiveness and efficiency of Government operations, the OMB issued
Circular A-50, which requires all agencies, including NASA, to establish audit follow-up
systems “to assure the prompt and proper resolution5 and implementation of audit
recommendations.” Resolution should occur within a maximum of 6 months after issuance of a
final report, and corrective action should proceed as rapidly as possible. FAR Subpart 4
requires firm fixed-price contracts to be closed within 6 months after the date on which the
contracting officer receives evidence of physical completion. The FAR subpart also requires
contracts needing settlement of indirect cost rates to be closed within 36 months. The Circular
requires that the follow-up systems provide for a complete record of action taken on both
monetary and nonmonetary findings and recommendations. Furthermore, the Circular
establishes 11 standards that follow-up systems must meet, including assuring that “performance
appraisals of appropriate officials reflect effectiveness in resolving and implementing audit
recommendations.”

As part of its oversight duties, the NASA Headquarters Office of Procurement conducts
surveys at NASA installations that address, in part, contract audit follow-up of RCA reports.

We have completed audits of NASA’s Contract Audit Follow-up System at Marshall and
Johnson. NASA management concurred with all the recommendations in the reports on those
audits and is taking corrective actions. Because of the prior audits, we limited our review at
Goddard to the NASA follow-up process for DCAA incurred cost audits.



5
  Resolution is the point at which the audit organization and agency management or contracting officials agree on action
to be taken on reported findings and recommendations; or in the event of disagreement, resolution is the point at which
the audit follow-up official determines the matter to be resolved.
Objectives. The overall objective was to evaluate the adequacy of NASA’s settlement of the
DCAA's incurred cost audits at Goddard. Additional details on the objectives, scope, and
methodology are in Appendix A.


Results of Audit. NASA policies and procedures for resolution and disposition of contract
audit findings and recommendations comply with OMB Circular A-50 requirements. However,
the follow-up and settlement of DCAA’s incurred cost audits at Goddard can be improved.

•    The system did not include complete records of action taken on findings and
     recommendations for 14 of 16 sampled DCAA audit reports for which the resolution and
     disposition authority had been delegated to the DoD. As a result, Goddard procurement
     personnel may not be able to ensure that audit findings and recommendations were resolved
     in a timely manner and that the resolutions were in NASA’s best interest (Finding A).

•    Goddard did not meet FAR guidelines on closing out 10 physically completed6 contracts.
     Five of 23 Goddard contracts covered by the 16 sampled DCAA incurred cost audit
     reports were awaiting closeout. In addition, Goddard procurement personnel identified five
     additional contracts that were not delegated to DoD and were not covered by the sampled
     audit reports. The five additional contracts were also awaiting closeout. The average time
     awaiting closeout for all 10 contracts was about 55 months. Delays in contract closeout can
     result in excess unliquidated obligations that could be used for other NASA programs. In
     addition, the delays can directly affect the success of Government negotiations and result in
     increased workload for contractors and contracting officers (Finding B).


Recommendations. We recommended that the Associate Administrator for Procurement
issue guidance to contracting officers on participating in final indirect cost negotiations for those
contractors for which NASA has a major financial interest as required by NASA FAR
Supplement 1842.705. In addition, the Director, Goddard Space Flight Center, should monitor
the effectiveness of the actions planned and taken to improve Goddard’s efforts to close
physically completed fixed-price contracts and contracts needing settlement of indirect cost
rates within the time frames specified by the FAR.

During prior audits of the NASA Contract Audit Follow-up System at Marshall and Johnson,
we recommended that NASA management take corrective actions regarding (1) communication
with DoD administrative contracting officers who have been delegated activities on NASA
contracts and (2) resolution of contract audit report recommendations within 6 months of


6
 FAR Subpart 4.804-4, “Physically completed contracts,” states that a contract is physically completed when (1) the
contractor has completed the required deliveries and the Government has inspected and accepted the supplies; (2) the
contractor has performed all services and the Government has accepted these services; and (3) all options, if any, have
expired.

                                                           ii
issuance of the final audit report. NASA management concurred with the recommended
actions; therefore, we are making no other related recommendations on these issues.


Management's Response.     Management generally concurred with the recommendations. NASA
management will clarify NASA FAR Supplement 1842.705 for contracting officers on
participating in final indirect cost rate negotiations for which NASA has a major financial
interest, and will discuss with DoD their role in this process. The Director, Goddard Space
Flight Center, has taken corrective actions to reduce and better manage overaged unliquidated
obligations and contract closeout. The complete text of the response is in Appendix F.


Evaluation of Management's Response. Management's actions are responsive to both
recommendations. We consider recommendation 2 dispositioned and closed for reporting
purposes. We are monitoring recommendation 1 concerning the requirements to jointly
participate in the DoD negotiations where NASA has a major financial interest.




                                              iii
Introduction

Policies and procedures concerning NASA contract audit follow-up systems are contained in
NASA FAR Supplement 1842.73017 and NASA Procedures and Guidelines (NPG) 1200.1.8
The policies and procedures require that NASA contract audit follow-up systems track all
contract and OMB Circular A-1339 audits for which NASA has resolution and disposition
authority and that audit recommendations be resolved as expeditiously as possible within 6
months of the issuance of the final audit report. NASA FAR Supplement 1842.7301 also
requires that, when contract administration is delegated, NASA contracting officers should at
least semiannually review and document in the contract files the status and resolution of
significant audit findings.

DCAA usually performs incurred cost audits on a contractor-wide basis. This approach (see
Appendix B) recognizes the efficiency of addressing the adequacy of management and financial
systems and controls combined with transaction testing across all business activities as opposed
to contract-by-contract audits. The primary objective for incurred cost audits is to determine
whether the incurred costs are reasonable, applicable to the contract, and not prohibited by the
contract, statute, or regulations.




7
  NASA issued FAR Supplement 1842.7301, “NASA external audit follow-up system,” on
January 26, 1998.
8
  NASA issued NPG 1200.1, “Management Accountability and Control, Audit Liaison, and Audit Follow-up,” on
October 8, 1997.
9
  OMB issued Circular A-133, “Audits of States, Local Governments, and Non-Profit Organizations,” on June 24,
1997.
Findings and Recommendations

Finding A. Adequacy of Monitoring Incurred Cost Audits When
NASA
Delegated Resolution Authority

The Goddard contract audit follow-up system did not include complete records of action on
incurred cost audit findings and recommendations for 14 of the 16 sampled DCAA audit
reports for which NASA delegated resolution and disposition authority to DoD. Goddard
procurement personnel did not (1) maintain adequate dialogue with the DoD administrative
contracting officers (ACO’s) who have been delegated activities on NASA contracts, (2)
document the status and resolution of significant audit findings in the contract files, or (3)
participate jointly with DoD ACO’s in final overhead determination procedures as required by
NASA FAR Supplement 1842.705. As a result, Goddard could not ensure that audit findings
and recommendations were resolved in a timely manner and that recovered questioned costs
were appropriately distributed to NASA contracts.


OMB, NASA, and FAR Guidance

OMB Circular A-5010 requires that agencies establish contract audit follow-up systems “to
assure the prompt and proper resolution and implementation of audit recommendations.” The
Circular requires follow-up systems to provide “complete records of action taken on both
monetary and nonmonetary findings and recommendations.”

To fulfill the requirements of the Circular, NASA FAR Supplement 1842 requires NASA
contracting officers to communicate with DoD ACO’s who have been delegated activities on
NASA contracts. The NASA contracting officers are required to conduct a review of
reportable contract audit reports under NASA cognizance, no less frequently than semiannually
and to document in their contract files the status and disposition of significant DCAA audit
findings.

In addition, FAR 42.70511 states that contracting officers of Federal agencies having significant
dollar interest in a contractor’s final indirect cost rate proposal should be invited to participate in
the negotiation and in the preliminary discussion of critical issues. To fulfill FAR requirements,
NASA FAR Supplement 1842.70512 states that NASA's policy is to participate jointly with
DoD for those companies for which NASA has a major financial interest.



10
   OMB revised Circular A-50, “Audit Follow-up,” on September 29, 1982.
11
   FAR 42.705, “Final Indirect Cost Rates,” sets forth contracting officer determination procedure.
12
   NASA FAR Supplement 1842.705, “Final Indirect Cost Rates,” implemented FAR 42.705 requirements.


                                                      2
NASA Delegation of Resolution and Disposition Authority

NASA delegated to DoD the authority for resolution and disposition of the findings in the 16
reports reviewed (Appendix C lists the reports). However, Goddard procurement personnel
generally did not monitor the status and resolutions of the report findings delegated to DoD
ACO’s, did not always document the resolution of such reports in contract files, and were often
unaware of DoD actions that affected their contracts for 14 of the 16 reports. Consequently,
NASA could not ensure that audit findings and recommendations were resolved on a timely
basis and that the resolutions were in NASA's best interest. Further, NASA's contract audit
follow-up systems did not track the status of incurred cost audit reports DoD is responsible for
resolving.

Questioned costs for seven DCAA reports totaled more than $10 million as illustrated below:

•   Two reports on one contractor's incurred costs included $11.6 million and $14 million,
    respectively, in questioned costs. The ACO sustained (recovered) $4.8 million and $9.5
    million of the questioned costs, respectively. NASA’s share of the sustained questioned
    costs was $675,000 of the $4.8 million and $1.4 million of the $9.5 million. The Goddard
    contract file had no record of the recovered costs.

•   Three reports on one contractor's incurred costs for 1994, 1995, and 1996, identified
    questioned costs of $14 million, $10.2 million, and $14.6 million, respectively. The ACO
    sustained $3.3 million, $5 million, and $3.6 million respectively. NASA’s share of the
    recovered questioned costs was $52,000 of the $3.3 million, $429,000 of the $5 million,
    and $74,000 of the $3.6 million. The Goddard contract file had no record of the recovered
    costs.

In addition, questioned costs for 3 of the 16 DCAA reports were for contracts for which
Goddard had a major financial interest. NASA’s share of the sustained questioned costs for
each of the three reports was 47 percent or higher (see Appendix C). The percentage of
sustained questioned costs generally represents an agency’s percentage of cost in the
contractors’ indirect cost allocation base used to allocate costs between the Government and
other contracts. In our opinion, such high percentages indicate a major financial interest. For
example:

•   One report had sustained questioned costs of $2.8 million and NASA’s share was $2.6
    million (that is, 95 percent of the total). The questioned costs were related to Goddard
    contract NAS5-29500.
•   One report had sustained questioned costs of $1.1 million and NASA’s share was
    $530,000 (that is, about 47 percent of the total). The questioned costs were related to
    Goddard contracts NAS5-30800 and NAS5-32631.



                                                3
NASA delegated to DoD ACO’s the authority to resolve and disposition the audit findings.
NASA Form 1430, “Letter of Contract Administration Delegation, General,” requires the DoD
ACO’s, among other things, to (1) obtain DCAA audit reports as requested and submit the
reports to the NASA contracting officer; (2) make secondary delegations as necessary and
provide copies of the delegations to the NASA contracting officer; (3) provide immediate input
to the NASA procurement office of significant program issues or problems; and (4) provide
input to the monthly report that includes the contractor’s systems, significant findings related to
these systems, and issues that could affect NASA contracts. For both of the reports discussed,
we would expect the ACO to inform NASA of the basis for the resolutions granted and the
allocations among NASA and other contracts. NASA contracting officers were not aware of
the basis for the resolutions granted or the allocations.

NASA Participation in Final Indirect Cost Rate Determination Procedures

NASA did not participate jointly with DoD ACO in final indirect cost rate determination
procedures. NASA contracting officers were not aware of the NASA FAR Supplement
1842.705 requirement, which states that NASA’s policy is to participate jointly with DoD for
those companies for which NASA has a major financial interest. NASA contracting officers
indicated that once the administrative function has been delegated to the ACO, the ACO is
responsible to conduct the contract negotiation.

Although NASA's policy is to optimize the use of contract administration services of other
Government agencies, NASA contracting officers must fulfill their oversight responsibilities.
Increased monitoring of DoD's audit resolution activities would allow NASA to (1) determine
the current status of all significant unresolved audits, (2) evaluate the appropriateness of the
audit resolution actions taken by DoD personnel, (3) ensure that recovered questioned costs
were appropriately distributed to NASA contracts, and (4) better understand the quality of their
contractors' business operations.



Corrective Actions To Be Taken by Management

We identified similar findings during our audits of the NASA Contract Audit Follow-up System
at Marshall and Johnson (Appendix D summarizes prior coverage) and made a
recommendation to the Associate Administrator for Procurement. The Associate Administrator
for Procurement concurred with the finding and agreed to reemphasize to all contracting officers
the NASA FAR Supplement 1842.7301(d) (3) requirements to (1) maintain a dialogue with
DoD ACO’s who have been delegated resolution authority on NASA contracts and (2)
conduct semiannual reviews and document the status and resolution of audit findings. Further,
contracting officers will require that delegated DoD ACO’s provide NASA with detailed
information on the resolution and disposition status of DCAA audit findings and
recommendations.


                                                 4
NASA has since issued Procurement Information Circular 00-06 and a letter to the Team
Leader, Procurement Management Survey Team, to include the "Audit Follow-up Process" in
all future procurement surveys. Circular 00-06 reemphasizes that it is important for contracting
officers to maintain a dialogue with the DoD ACO and to document the status and disposition of
significant audit findings accordingly in the contract file. Further, the Agency has revised NASA
Form 1430 to require the DoD ACO to specifically furnish to NASA detailed information on
DCAA audit reports. Therefore, we are making no other recommendation for corrective action
on this issue.



Recommendation, Management's Comments, and Evaluation of
Response

1. The Associate Administrator for Procurement should issue guidance to contracting
   officers on participating in final indirect cost rate negotiations for those contractors
   for which NASA has a major financial interest as required by NASA FAR
   Supplement 1842.705.

Management's Response.  Concur with intent. Management did not concur with the specific
method recommended. The Associate Administrator for Procurement will (1) clarify to all
Center procurement personnel the requirement for NASA to jointly participate in final indirect
rate negotiations with DoD ACO’s where NASA has a major financial interest, as required by
NASA FAR Supplement 1842.705, and (2) discuss with DoD management its role in this
process in order to ensure that DoD ACO’s are complying with the FAR.

                                   The actions planned by management are responsive to the
Evaluation of Management's Response.
recommendation. We consider Recommendation 1 resolved but undispositioned and open until
the agreed-to actions are completed.




                                               5
Finding B. Timeliness in Closing Contracts after Physical Completion

Goddard has not met FAR guidelines on closing out 10 contracts (see Appendix E) after they
were physically completed. This occurred for various reasons including Goddard's large
closeout workload, decentralization of the contract closeout function, low priority of closeout
tasks, and contracts being litigated. As a result, contracts awaiting closeout encumbered
unliquidated obligations that could be used for other NASA programs. Delays can increase the
administrative burden on contractors and contracting officers and can weaken the Government’s
negotiating position in cases of employee turnover or other loss of first-hand knowledge of
contractor performance.


Federal Acquisition Regulation

FAR Subpart 4 sets time standards for closing out contract files as follows:

•    Files for firm-fixed-price contracts, other than those using simplified acquisition13
     procedures, should be closed within 6 months after the date on which the contracting officer
     receives evidence of physical completion.

•    Files for contracts requiring settlement of indirect rates should be closed within 36 months of
     the month in which the contracting officer receives evidence of physical completion.

•    Files for all other contracts should be closed within 20 months of the month in which the
     contracting officer receives evidence of physical completion.

In addition, FAR Subpart 4 states that quick closeout procedures should be used, when
appropriate, to reduce administrative costs and to enable deobligation of excess funds.


Large Closeout Workload and Decentralized Closeout Function

Goddard has more contracts in closeout than any other NASA center (that is, about 53 percent
of the total contract closeouts in the Agency). Goddard’s large closeout workload and
decentralized closeout function has contributed to contracting officers not meeting FAR
guidelines on closing out 10 physically completed contracts (see Appendix E for contract
details). A Goddard contract closing administrator14 indicated that 150 contracts are awaiting
closeout.

13
   FAR 2.1, “Definitions,” defines “simplified acquisition procedures,” as the methods prescribed in FAR Part 13 for
making purchases of supplies and services not to exceed $100,000. The purpose of the methods includes reducing
administrative costs and promoting efficiency and economy in contracting.
14
   Many of Goddard’s branch-level procurement offices have a contract closing administrator who is responsible for
performing various tasks to help the contracting officer promptly close out contracts.


                                                          6
The contract closeout function has been decentralized, and the contract closing administrators
were limited in the amount of effort they could devote to the closeout task. From 1974 until
June 1997, a centralized contract closeout office processed all contract closeouts. Since June
1997, each procurement branch has been responsible for complete contract administration.
Procurement supervisors routinely assign a wide variety of tasks on active contracts to contract
closing administrators and have considered closeout tasks a low priority in comparison to
competing tasks.

The 10 contracts physically completed but not closed out are described below:

     •   One cost-plus-award-fee contract was physically completed in January 1993. The $23
         million contract was for Gamma Ray Remote Sensing Spectrum. The closing
         administrator resumed closeout responsibility after the decentralization of the closeout
         function. As a result, the contracting officer did not request the final DCAA audit until
         June 1997, 4 years after the contract was physically completed. DCAA completed the
         final audit in September 1999, 2 years after the request. As of April 2000, the contract
         is still awaiting closeout.

     •   Three contracts that were physically completed in 1995 and 1996 are still awaiting
         closeout. The delay occurred because of the decentralized closeout function and limited
         time closing administrators could devote to closeout tasks. Two contracts have
         unliquidated obligations of $33,000 and $77,000. The remaining contract has no
         unliquidated obligations.

     •   One fixed-price contract was physically completed in December 1993. The $81 million
         contract was for a National Oceanic and Atmospheric Administration project. The
         delay of contract closeout was due to the contractor’s dispute,15 which was settled on
         April 6, 2000. The closing administrator requested DCAA's contract audit closing
         statement on April 7, 2000. DCAA has not submitted a contract audit closing
         statement to NASA because it is waiting for the contractor to submit the final incurred
         cost proposal.

     •   Five additional contracts that were not from our sample reports were physically
         completed from 1995 through 1997. Three contracts were closed out from 47 to 60
         months after they were physically completed, and two contracts are awaiting closeout.




15
  A contractor initiated dispute over about $900,000 in reimbursable costs from NASA as a result of the failure of one
of the satellites.


                                                           7
NASA Procurement Management Survey

NASA conducted a procurement management survey at Goddard during November and
December 1998. The survey team identified two areas of concern on closing out contracts:

•   Goddard did not use a system or database to track the entire Goddard closeout inventory.
    The Procurement Officer should establish a closeout status reporting system that monitors
    the closeout function and measures performance. The system must be comprehensive and
    include all award instruments and must be capable of generating information on closeout
    performance at the Center.

•   Goddard had no comprehensive plan to monitor and manage the closeout workload. The
    Procurement Officer should require the establishment of formal closeout policies and
    standards as well as a comprehensive plan to address the closeout issues in the
    decentralized environment.

Contract Closeout Process Improvements

We discussed with Goddard the following management actions taken to improve the contract
closeout process:

•   As of the end of 1998, Goddard had (1) developed a monthly Closeout Inventory Report
    for tracking and measuring closeout performance, (2) implemented a plan to address the
    closeout issues and unliquidated obligations, and (3) developed a closeout manual for
    Goddard procurement personnel.
•   In January 1999, Goddard’s Center Director submitted a plan to the Associate
    Administrator for Earth Science to substantially reduce or eliminate Goddard’s unliquidated
    obligations. The plan had four major components: (1) a Goddard Task Team to review
    progress, solve problems and ensure application of closeout techniques; (2) Office of
    Procurement intervention with DoD elements (including DCAA) to provide an Agency-wide
    focus to monitor progress on all of NASA’s major cost reimbursement contracts awaiting
    closeout; (3) an increase in procurement staffing; and (4) additional Goddard and
    Headquarters Financial Management Division resources.
•   The Associate Administrator for Procurement issued to NASA’s Administrator a Contract
    Management Status report, which stated that Goddard’s unliquidated obligations and
    closeouts improved from “needs to do better” to “doing okay” during the semi-annual
    period ending March 31, 2000.
•   Goddard is currently evaluating the use of an Agency-wide contract to assist with contract
    closeouts. NASA Ames Research Center would administer the contract.




                                               8
Maintaining Unliquidated Obligations

Goddard had unliquidated obligations on many of the contracts awaiting closeout. Appendix E
shows the amount of unliquidated obligations for each of the 10 contracts. We identified another
contract16 during our review that has not exceeded the 36-month FAR requirement (it has been
32 months) since contract completion, but has $436,376 of unliquidated obligations.

Goddard contracting officers stated that DCAA incurred cost audit findings are generally settled
just prior to closing out contracts. DCAA incurred cost findings and DoD ACO’s sustained
questioned costs amounts would not be reflected in Goddard’s contract files until contract
closeout. In addition, any funds due to NASA would not be recovered until contracts are closed
out.



Recommendation, Management's Comments, and Evaluation of
Response

2. The Director, Goddard Space Flight Center, should monitor the effectiveness of the
      actions planned and taken to improve Goddard’s efforts (1) to close firm-fixed-price
      contracts within 6 months after receipt of evidence that the contract is physically
      completed and (2) to close contracts needing settlement of indirect cost rates within
      36 months after receipt of evidence that the contract is physically completed as
      required by the FAR.


Management's Response.  Concur. The Director, Goddard Space Flight Center submitted a plan
on January 29, 1999, to the Associate Administrator for Earth Science to substantially reduce
overaged, unliquidated obligations and, therefore, decrease the closeout inventory. Specifically,
Goddard instituted the following measures:

      •   A monthly closeout inventory is provided to Procurement Managers to aid them in the management
          of their closeout activities.
      •   A task team was assembled to periodically assess our progress and evaluate improved methods to
          expedite the closeout process.
      •   Procurement professionals responsible for closeout activities now have a manual providing guidance
          on the documentation and steps necessary for the timely disposition of physically complete files.
      •   Goddard is evaluating the use of NASA’s Agency-wide closeout contract to assist with Goddard’s
          closeout activities.



 16
   Contract NAS5-29370 with Ball Aerospace was completed September 15, 1997, and has an unliquidated obligations
 amount of $436,376.


                                                          9
    •   The Division Chief for Procurement Operations reports monthly during Goddard’s Executive
        Council and Headquarters Institutional General Management Status Review on the progress of
        unliquidated obligations and closeout activities.


                                 The actions taken by management are responsive to the
Evaluation of Management's Response.
recommendation. We consider the recommendation dispositioned and closed for reporting
purposes.




                                                   10
                Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective was to evaluate the adequacy of NASA’s settlement of the DCAA
incurred cost audits at Goddard Space Flight Center. Specifically, we determined whether:

         • NASA contracting officers appropriately settled the incurred cost audits in a timely
           manner and in accordance with the FAR; NASA FAR Supplement; and OMB
           Circular A-50, "Audit Follow Up," September 29, 1982, when NASA has final
           indirect cost rate determination authority.
         • NASA has adequately monitored DCAA audits to be resolved by the Department
           of Defense (DoD) and has jointly participated in the negotiation/settlement process
           when DoD has final indirect cost rate determination authority.

We did not assess the adequacy of the administrative contracting officers’ (ACO's) resolutions
of audit findings.

Scope and Methodology

We performed the detailed audit work at Goddard Space Flight Center, Greenbelt, Maryland.
We reviewed OMB Circular A-50 requirements; NASA’s policies, including NASA FAR
Supplement 1842.705, Procurement Notice 97-2, and NPG 1200.1; and other agencies’
policies referenced in NASA guidelines such as DoD Directive 7640.217 and the DCAA
Contract Audit Manual. We interviewed Goddard and DoD contracting officers to determine
whether audit findings and recommendations were resolved and dispositioned promptly and
effectively.

To determine whether NASA’s settlement of DCAA's incurred cost activities ensure the
prompt and effective resolution and disposition of incurred cost audit recommendations, we
selected the DCAA audit reports containing findings and reviewed the audit recommendations
with the applicable Goddard contracting officers. We reviewed all 7 reports with more than
$10 million in questioned costs each and randomly selected 1018 out of 164 DCAA incurred
audit reports with findings that were issued during FY’s 1997 and 1998. We also performed
limited reviews (1) of 5 additional contracts for which NASA retained resolution authority and
that were physically completed and (2) of 13 of the 20 audits that were included in the DCAA
June 1997 billing data to Goddard. We reviewed the 13 reports to determine whether NASA
should have categorized the reports as reportable contract audit reports.



17
  DoD issued Directive 7640.2, “Policy for Follow-up on Contract Audit Reports,” on August 16, 1995.
18
  We selected 17 DCAA audit reports for review. NASA did not delegate resolution and disposition authority to DoD
for 1 of the 10 randomly selected reports. Therefore, we evaluated 16 audit reports for which NASA delegated
resolution and disposition authority to DoD.

                                                       11
Appendix A

                      FY’s 1997 and 1998 Audit Reports Reviewed


                           Number of Audits          Audits With More       Number of Other
           Fiscal          With Questioned         Than $10 Million Each      Randomly
           Year                 Costs               in Questioned Costs     Selected Audits
     1997                        89                          2                      5
     1998                        82                          5                      5
     Total Reviewed                                          7                     10


Management Controls Reviewed

We examined Goddard policies and procedures concerning the settlement of DCAA's incurred
cost audit process. We also reviewed Goddard practices to track contract audit reports and to
follow up on audit recommendations for timely resolution and disposition where DoD has final
indirect rate determination.

We considered management policies and procedures to be adequate. However, controls need
to be strengthened to ensure that contracting officers maintain a dialogue with the DoD ACO’s
(Finding A) and promptly close out within 36 months contracts that were physically completed
as required by FAR Subpart 4 (Finding B).

Audit Field Work

We performed audit field work from April through June 2000. We conducted the audit in
accordance with generally accepted government auditing standards.




                                              12
                            Appendix B. Incurred Cost Audits

DCAA Contract Audit Manual, Volume 1, Chapter 6-102.1; July 1999, describes the incurred
cost audit objectives and approach as:

       The auditor’s primary objective is to examine the contractor’s cost representation, in whatever form
       they may be presented (such as interim and final public vouchers, progress payments, incurred
       cost submissions, termination claims and final overhead claims), and to express an opinion as to
       whether such incurred costs are reasonable, applicable to the contract, determined under generally
       accepted accounting principles and cost accounting standards applicable in the circumstances, and
       not prohibited by the contract, by statute or regulation, or by previous agreement with, or decision
       of, the contracting officer. In addition, the auditor must determine whether the accounting system
       remains adequate for subsequent cost determinations, which may be required for current or future
       contracts. The discovery of fraud or other unlawful activity is not the primary audit objective;
       however, the audit work should be designed to provide reasonable assurance of detecting abuse or
       illegal acts that could significantly affect the audit objective. If illegal activity is suspected, the
       circumstances should be reported in accordance with 4-700.

       Audit Approach
       a.      Incurred cost audits are usually performed on a contractor-wide basis. This approach
               recognizes the efficiency of addressing the adequacy of management and financial systems
               and controls combined with transaction testing across all business activities as opposed to
               contract-by-contract audits. Only in certain low-risk situations would DCAA audit
               individual contracts, such as an audit of a small-dollar contract at a multi-million dollar
               corporation where the small contract represented the company's only business with the
               government.

       b.        For major contractors and contractors with significant negotiated firm-fixed price
                 contracts, reviews of relevant accounting and management systems will be performed on a
                 cyclical basis and form the foundation for determining the nature and extent of transaction
                 testing necessary on individual incurred cost audits. See Chapter 5 for guidance on
                 reviews of contractor's internal controls.

      c.         For non-major contractors, separate audits and reports on individual contractor
                 accounting and management systems may not be necessary. An understanding of the
                 contractor's internal control structure may be gained at the time of the final overhead audit
                 or during individual contract audits. The auditor's understanding of the internal control
                 structure gained from these audits should be documented in the permanent file. (See 5-
                 111 for further guidance on reviewing internal controls at nonmajor contractors.)

      d.         Regardless of the audit approach, in all audits emphasis will be on determining the overall
                 acceptability of the contractor's claimed costs with respect to
                 (1) reasonableness of nature and amount;
                 (2) allocability and capability of measurement by the application of duly promulgated
                 Cost Accounting Standards and generally accepted accounting principles and practices
                 appropriate to the particular circumstances; and
                 (3) compliance with applicable cost limitations or exclusions as stated in the contract or
                 the FAR.




                                                         13
        Appendix C. Audit Reports for Which NASA Delegated Resolution and
                        Disposition Authority ($ in $000)


  DCAA Report             Date of                           Questioned       Sustained      NASA's       Resolution       Disposition
     Number               Report           Contract           Costs            Cost          Share         Date              Date
3131-97K10150001          09/25/97        NAS5-29360         $13,879          $3,320          $52         3/18/98           3/18/98
                                          NAS5-26836
                                          NAS5-30689
4901-95P10150001          09/27/96        NAS5-26555           $11,611         $4,819         $675        06/30/97          06/30/97
                                          NAS5-31459
                                          NAS5-32626
3131-97K10150002          03/27/98        NAS5-29360           $10,244         $4,966         $429        06/04/99          06/04/99
                                          NAS5-26836
                                          NAS5-30689
3131-97K10150003          06/25/98        NAS5-29360           $14,561         $3,564          $74        12/31/99          12/31/99
                                          NAS5-26836
                                          NAS5-30689
4901-96P10150001          02/27/98        NAS5-26555           $13,889         $9,469        $1,420       12/06/99          12/06/99
                                          NAS5-31459
                                          NAS5-32626
4901-97K10150003          11/13/97        NAG5-3077            $14,354         $6,495         $637         8/10/98              8/10/98
                                          NAG5-3102
                                          NAS5-30386
                                           NCC5-95
                                                1
6631-97L10150001          06/25/98                             $27,757                                      Not               Not
                                                                                                          Resolved        Dispositioned
4291-97J101500012         09/30/97        NAS5-29500           $4,430          $2,779        $2,640       12/16/97          03/26/98
                                                3
4901-97V10250004          06/09/97                              $369            $369          $68         07/02/97          07/02/97
2211-97B10150230          06/24/97         NCC5-82              $435            $435          $13         06/24/97          06/24/97
                                           NCC5-34
3121-98H10150002          09/30/98        NAS5-31808           $1,044            $-0-          $-0-       07/21/99          08/27/99
                                          NAS5-20370
                                          NAS5-32864
6501-97U10250201          04/29/97        NAS5-28000           $1,141          $1,507         $226        09/23/97          09/23/97
                                          NAS5-28666
3521-98S10250001          07/31/98        NAG5-1981            $2,046          $2,046         $266        07/31/98          07/31/98
                                          NAS5-31724
                                          NAG5-2258
6311-97C10250479          12/31/96        NAS5-32513             $5              $5             $2        01/06/97          01/06/97
4281-97B101500094         01/30/98        NAS5-32811            $16             $16            $12        01/30/98          01/30/98
4361-96B101500025         04/30/97        NAS5-30800           $3,016          $1,128         $530        12/23/98          12/23/98
                                          NAS5-32631
      Totals                                                   $118,797         $40,918        $7,044
   1
     The report was for the contractor’s Corporate Home Office Expenses and Facilities Capital. The report did not identify a
   specific Goddard contract.
   2
     NASA’s share of sustained costs for this report represented 95 percent of the total sustained costs.
   3
     The ACO made a decision to apply questioned costs to contractor’s forward pricing rates. The report did not identify a
   specific Goddard contract.
   4
     NASA’s share of sustained costs for this report represented 75 percent of the total sustained costs.
   5
     NASA’s share of sustained costs for this report represented 47 percent of the total sustained costs.




                                                                14
Appendix D. Summary of Prior Coverage

The NASA Office of Inspector General (OIG), DoD Office of Inspector General, and the General
Accounting Office (GAO) have issued reports relating to the use of audit services provided by
DCAA and to NASA’s audit follow-up process. The reports are summarized below. (Copies of
the NASA OIG reports are available at www.hq.nasa.gov/office/oig/hq/issuedaudits.html.)

NASA

“NASA Contract Audit Follow-up System at Johnson Space Center,” Report Number IG-
00-032, May 19, 2000. The system did not include complete records of action taken on findings
and recommendations for which resolution and disposition authority had been delegated to DoD
ACO. As a result, Johnson procurement personnel could not ensure that audit findings and
recommendations were resolved in a timely manner and that the resolutions were in NASA’s best
interest. We identified a similar finding during our audit of the NASA Contract Audit Follow-up
System at Marshall. Therefore, we did not make a recommendation for corrective action on this
issue. Also, Johnson procurement personnel did not track and report certain reportable contract
audit reports and did not resolve or disposition reports’ findings and recommendations within 6
months after report issuance pursuant to OMB Circular A-50. Consequently, audit findings were
not resolved in a timely fashion, and NASA funds that should have been disallowed, withheld, or
reduced could not be reallocated to other NASA programs. Management concurred with the two
recommendations and issued Procurement Information Circular (PIC) 00-06 and a letter to the
Team Leader, Procurement Management Survey Team, to include the "Audit Follow-up Process" in
all future procurement surveys.

“NASA Contract Audit Follow-up System at Marshall Space Flight Center,” Report
Number IG-00-010, March 6, 2000. The system did not include complete records of action taken
on findings and recommendations for which resolution and disposition authority had been delegated
to DoD ACO. As a result, Marshall procurement personnel could not ensure that audit findings and
recommendations were resolved in a timely manner and that the resolutions were in NASA’s best
interest. Also, Marshall procurement personnel did not track and report certain reportable contract
audit reports and did not resolve or disposition reports’ findings and recommendations within 6
months after report issuance pursuant to OMB Circular A-50. Consequently, audit findings were
not resolved in a timely fashion and NASA funds that should have been disallowed, withheld, or
reduced could not be reallocated to other NASA programs. Management concurred with the four
recommendations and issued Procurement Information Circular (PIC) 00-06 and a letter to the
Team Leader, Procurement Management Survey Team, to include the "Audit Follow-up Process" in
all future procurement surveys.




                                                15
Appendix D


“Review of NASA’s Use of Audit Services Provided by the Defense Contract Audit
Agency,” Report Number P&A-98-001, September 30, 1998. NASA needs to improve its
oversight of the use, benefits, and effectiveness of DCAA services. Also, NASA’s audit follow-up
system needs improvement to ensure that all reports, including those sent to DoD
for follow-up and resolution, are properly accounted for and resolved. This condition occurred
because NASA tracked only reportable DCAA audit reports, the Centers did not have a centralized
point to receive and track audit reports, and NASA did not monitor the status of DCAA audit
reports sent to DoD for follow-up and resolution. The OIG made six recommendations to NASA.
Management partially concurred with the recommendations and plans to coordinate on information
available from DCAA to improve NASA’s oversight of the use of DCAA services. However,
procurement management believes the present systems at NASA Headquarters and its Centers are
sufficient for tracking DCAA workload and reports.

“NASA Audit Follow-up Process: HQ Center,” Report Number HQ-94-009,
May 26, 1994. NASA did not have an effective follow-up system to closely monitor contract
audits and ensure timely and complete resolution. This occurred because NASA Headquarters
procurement officials did not have an active role in routinely monitoring actions taken on the reports;
instead procurement officials relied on the individual contracting officer to resolve and implement the
audit recommendations. Also, the procurement and contracting officers at the Centers did not have
clear and formal performance standards to promote effective contract audit follow-up. The NASA
Contract Pricing and Finance Division concurred with the OIG recommendation to participate in the
resolution and disposition process at the Center procurement offices and to include contract audit
follow-up standards in the contracting officers’ performance plans.

DoD Inspector General

“The Air Force Contract Audit Follow-up System,” Report Number 00-003,
October 4, 1999. The Air Force contracting officers experienced delays in settling contract audit
reports. As a result, contracting officers sustained a significantly lower percentage of questioned
costs. Also, contracting officers did not issue demand letters on defective pricing settlements in
contract overpayments and interest. Consequently, overpayments and associated interest were not
collected in a timely manner in all cases. The DoD Inspector General made two recommendations;
however, the Air Force did not comment on the draft report and was requested to provide
comments on the final report.

“Settlement of Contractor Incurred Indirect Cost Audits,” Report Number 99-057,
December 21, 1998. The Navy and Defense Contract Management Command did not maintain
and report accurate contract audit follow-up data. As a result, component management was not
able to effectively determine whether their contract audit follow-up systems were adequate and
resulted in timely and appropriate disposition of audit reports. The DoD Inspector General made
one recommendation; the Navy concurred and took corrective



                                                  16
                                                                                        Appendix D

actions. The Defense Logistics Agency partially concurred and will issue a letter to the Contract
Audit Follow-up monitors addressing this concern.

“Defense Contract Audit Agency Audits of Indirect Costs at Major Contractors,” Report
Number PO 98-6-016, August 6, 1998. DCAA did not always perform sufficient transaction
testing in conjunction with the internal control system review, and those reviews can be performed
less frequently than every 3 years. Therefore, the internal control review results that DCAA relies on
to assess audit risk may be outdated and inaccurate. Also, DCAA audits of indirect costs for
allowability, allocability, and reasonableness often did not provide a sufficient in-depth analysis to
conclude that the costs were acceptable for reimbursement. The audit procedures used for selecting
or sampling transactions for review were frequently not the most effective means to review indirect
costs. Consequently, DoD may be paying contractors for costs that should not or need not be
reimbursed, thereby increasing the overall cost for DoD programs. The DCAA nonconcurred with
DoD’s recommendation, however, management did agree that the internal control system review of
indirect costs should be completed by the end of FY 1998 for all major contractor entities.

GAO

“NASA Contract Management: Improving the Use of DCAA’s Auditing Services,” Report
Number GAO/NSIAD-94-229, September 30, 1994. The GAO raised many concerns related to
NASA contractors’ unallowable cost claims, the status of contractors’ business systems, NASA’s
involvement in DCAA’s audit planning process, timeliness of contract closeout, and contract audit
tracking and follow-up systems. The GAO made six recommendations. Two of the
recommendations dealt with NASA’s untimely tracking and following up on contract audit reports,
monitoring audit findings and recommendations that are resolved by DoD ACO’s, and documenting
the status and disposition of the audit findings in contract files. NASA management agreed that its
audit tracking and reporting systems need improving, but was concerned that the GAO
recommended that NASA track the status of audit reports that DoD also tracked and was
responsible for resolving. The GAO’s response was: “We do not want NASA to duplicate DoD’s
work. Our point is that NASA should understand and evaluate the adequacy of the service it is
receiving in this area.”




                                                 17
                     Appendix E. Contracts Physically Completed and in Closeout


                                                      Contract
 Contract                                             Value (in        Contract      Completion         Months After          Unliquidated
 Number                 Contractor                     $000)            Type           Date             Completion*            Obligation
NAS5-29360           Lockheed Martin
                  Corporation/Astronautics              $22,912         Cost            1/31/93                88                 -0-
NAS5-31459         California Institute of
                        Technology                       $7,305         Cost            9/30/95                56                 -0-
NAS5-30386          Stanford University                 $59,491         Cost            3/31/96                49               $33,000
NAS5-28000           Lockheed Martin                                    Fixed
                  Corporation/Astrospace                $80,600         Price          12/31/93                77                 -0-
NAS5-32602        Ogden Logistics Services              $17,786         Cost            5/21/96                48               $77,000
NAS5-32619           Computer Sciences
                        Corporation                          $ 69       Cost             6/4/96                47                 -0-
NAS5-32608            Lockheed Martin
                        Corporation                          $ 32       Cost             5/2/95                60                 -0-
                      Missile & Space
NAS5-32363         Aerodyne Research Inc.                   $387        Cost            5/16/97                36               $4,197
NAS5-32357           LNK Corporation                         $ 90       Cost            4/18/97                37               $1,508
NAS5-32694           Science Application
                  International Corporation                 $368        Cost            3/31/96                49                 -0-
  Average
Months After                                                                                                   55
 Completion




       *As of May 200, we identified 10 contracts physically completed; however, closeout has not yet occurred. The months
       after completion column shows the time from contract completion date to our June 2000 field work completion date. We
       rounded the time as appropriate.



                                                                  18
Appendix F. Management’s Response




               19
Appendix F




             20
     Appendix F




21
Appendix F




             22
     Appendix F




23
Appendix F




             24
                        Appendix G. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Centers

Director, Lyndon B. Johnson Space Center
Director, Marshall Space Flight Center
Director, John F. Kennedy Space Center
Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisitions Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space




                                            25
                                                                                Appendix G

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             26
               NASA Assistant Inspector General for Auditing
                              Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Audit of NASA Settlement of DCAA's Incurred Cost Audits at
               Goddard Space Flight Center

Report Number:                                       Report Date:


Circle the appropriate rating for the following statements.

                                                     Strongly                                Strongly
                                                      Agree     Agree   Neutral   Disagree   Disagree   N/A
1. The report was clear, readable, and
                                                        5           4      3         2          1       N/A
   logically organized.
2. The report was concise and to the point.             5           4      3         2          1       N/A

3. We effectively communicated the audit
                                                        5           4      3         2          1       N/A
   objectives, scope, and methodology.
4. The report contained sufficient
                                                        5           4      3         2          1       N/A
   information to support the finding(s) in a
   balanced and objective manner.

Overall, how would you rate the report?

     Excellent            Fair
     Very Good            Poor
     Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.




                                                27
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes: ____________          No: ____________
Name: ____________________________________
Telephone: ________________________________


Thank you for your cooperation in completing this survey.




                                              28
Major Contributors to the Report

Lorne A. Dear, Program Director, Procurement Audits

Tony A. Lawson, Audit Program Manager

Lydia C. Lin, Auditor-in-Charge

Nancy C. Cipolla, Report Process Manager

Betty Weber, Operations Research Manager

Debra Schuerger, Program Assistant
